           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       INDIVIDUALS RECEIVING
    SOCIAL SECURITY CARDS AFTER
   BENEFITS HAVE BEEN SUSPENDED

    March 2010    A-09-09-29004




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      March 26, 2010                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Individuals Receiving Social Security Cards After Benefits Have Been Suspended
           (A-09-09-29004)


           OBJECTIVE

           Our objective was to determine whether address information obtained when individuals
           apply for replacement Social Security cards was used to resolve prior beneficiary
           suspensions for address or whereabouts unknown.

           BACKGROUND

           The Social Security Administration (SSA) administers the Old-Age, Survivors and
           Disability Insurance program under Title II of the Social Security Act. This program
           provides monthly benefits to retired and disabled workers, including their dependents
           and survivors. 1

           SSA may suspend benefits when it receives a report that a beneficiary’s whereabouts
           are unknown or if benefit checks have been returned undeliverable. When this occurs,
           the field office must attempt to locate the beneficiary. When the beneficiary is located,
           benefits are usually reinstated. To avoid duplication of effort, the field office must
           document its actions to locate beneficiaries whose benefits were suspended or
           terminated because their addresses or whereabouts were unknown. 2

           The minimum requirements for obtaining a replacement Social Security card include the
           applicant’s full name, date of birth, and complete address. 3



           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
             SSA, Program Operations Manual System (POMS), SM 03005.140.A, GN 02602.320, and
           DI 13015.005.B.
           3
               SSA, POMS, RM 00202.001.A and E.1.
Page 2 - The Commissioner

SSA’s field offices and card centers are responsible for processing applications for
Social Security numbers, including requests for replacement cards. In 2004, SSA
developed the Customer Service Record (CSR) to provide consolidated information for
SSA’s direct contact employees. The CSR includes information from SSA’s Master
                           4
Beneficiary Record (MBR).

We identified 6,477 Title II beneficiaries whose benefits were suspended because their
addresses or whereabouts were unknown between January 2000 and April 2008 and
who subsequently applied for a replacement Social Security card (see Appendix B).

RESULTS OF REVIEW
We determined that address information obtained when individuals applied for
replacement Social Security cards should have been used to resolve prior beneficiary
suspensions for address or whereabouts unknown. Based on a random sample
of 200 beneficiaries, we found that SSA could have resolved the whereabouts of
approximately 4,761 Title II beneficiaries who applied for replacement Social Security
cards. As a result, about $22.7 million in benefits remained in suspense for address
or whereabouts unknown for these beneficiaries (see Appendix C).

This occurred because SSA employees did not identify and resolve the suspended
benefits when processing requests for replacement Social Security cards.

BENEFITS SUSPENDED FOR ADDRESS OR WHEREABOUTS UNKNOWN

Of the 200 beneficiaries in our sample, we found that SSA did not properly resolve
147 (73.5 percent) beneficiary suspensions. For the remaining 53 beneficiaries,
SSA paid 38 the withheld benefits, and 15 were ineligible for the withheld benefits.
Of the 147 unresolved beneficiary suspensions, 41 were suspended for address or
whereabouts unknown, and 106 were terminated with a prior suspension when they
applied for a replacement Social Security card. Since the beneficiaries were required
to provide evidence of identity and a correct, complete address, SSA should have
resolved the prior suspensions and determined whether $700,052 in withheld benefits
were payable to these beneficiaries. Our sample results are summarized below.




4
    SSA, POMS, SM 01605.001.
Page 3 - The Commissioner



       Suspended Beneficiaries Receiving Social Security Cards
                           Based on Random Sample of 200 Beneficiaries

       41 Suspended Pay                                                  106 Terminated Pay
         Status (20.5%)                                                   Status with Prior
                                                                         Suspension (53.0%




    15 Ineligible for
    Benefits (7.5%)




                38 Properly Paid
                    (19.0%)




Beneficiaries in Suspended Pay Status

Our review disclosed that 41 of the 147 beneficiaries were in suspended pay status for
address or whereabouts unknown when they applied for a replacement Social Security
card. When the beneficiaries applied for their replacement Social Security card, SSA
employees did not properly resolve their suspensions even though the CSR disclosed
that benefits were suspended for address or whereabouts unknown. As a result,
$425,123 in benefits remained in suspense for these beneficiaries.

SSA’s field offices and processing centers may suspend benefits if they determine a
                                                           5
beneficiary’s address or whereabouts should be verified. Efforts to locate a beneficiary
should be documented in the beneficiary’s file or recorded in the special message
                     6
field on the MBR. An alert for “address development” and “whereabouts unknown”
is generated after 60 days of suspension. A follow-up alert is generated 6 months
after the initial alert for an address development, and a follow-up alert is generated
12 months after the initial alert for whereabouts unknown. 7




5
     SSA, POMS, SM 03020.080.A and B.
6
     SSA, POMS, GN 02602.320 and DI 13015.005.B.
7
     SSA, POMS, SM 00619.085 and SM 00619.090.
Page 4 - The Commissioner

SSA employees generally obtain a CSR when an applicant visits a field office or
card center to apply for a replacement Social Security card. The CSR provides
information from SSA’s databases, including the beneficiary’s payment status. 8
Although, the CSR displayed whether the beneficiary is in current, suspended, or
terminated pay status, SSA employees did not always review the CSR to identify and
resolve prior suspensions for address or whereabouts unknown when beneficiaries
applied for a replacement Social Security card. According to SSA employees, the
field office or card center should have reviewed the CSR and, when benefits were
suspended for address or whereabouts unknown, updated the MBR and determined
whether benefits were payable.

For example, a child beneficiary became entitled to auxiliary benefits in
December 1995. In November 2002, SSA suspended benefits for whereabouts
unknown. The beneficiary applied for a replacement Social Security card in
March 2003. During the office visit, SSA employees should have reviewed the CSR
and noted the suspended benefits on the MBR, updated the address information,
and determined whether the benefits were due. However, the beneficiary was still in
suspended pay status as of June 2009. As a result, $9,869 in benefits remained in
suspense for whereabouts unknown.

Beneficiaries in Terminated Pay Status

Our review disclosed that 106 of the 147 beneficiaries were in terminated pay status
with a prior suspension for address or whereabouts unknown when they applied for a
replacement Social Security card. We found that SSA employees did not identify the
suspended benefits when processing requests for replacement Social Security cards.
As a result, $274,929 in benefits remained in suspense for these beneficiaries.

The CSR displays only the most recent payment status of the beneficiary. Therefore,
when benefits are terminated, prior suspension information is not readily available to
SSA employees unless they review the MBR.

For example, a child beneficiary became entitled to auxiliary benefits in May 1987.
In February 2000, the child’s benefits were suspended for address development.
SSA terminated benefits in September 2002 because the child attained age 18. In
March 2003, the beneficiary applied for a replacement Social Security card. However,
SSA employees were unaware that $24,403 in suspended benefits remained on
beneficiary’s payment record. Since the CSR did not display any information about
the prior suspension, SSA employees were unable to readily determine whether the
beneficiary was entitled to the suspended benefits.




8
    SSA, POMS, SM 01605.001.B.
Page 5 - The Commissioner

When applicants submit a request for a replacement Social Security card, SSA
employees are not required to review the applicant’s payment history. Such a review
would enable SSA employees to identify terminated beneficiaries with suspended
benefits remaining on their payment record.

CONCLUSION AND RECOMMENDATIONS
We determined the address information obtained when individuals applied for
replacement Social Security cards should have been used to resolve prior beneficiary
suspensions for address or whereabouts unknown. Based on a random sample
of 200 beneficiaries, we found that SSA could have resolved the whereabouts of
approximately 4,761 Title II beneficiaries who had applied for replacement Social
Security cards. As a result, about $22.7 million in benefits remained in suspense for
address or whereabouts unknown (see Appendix C). This occurred because SSA
employees did not identify and resolve the suspended benefits when processing
requests for replacement Social Security cards. Therefore, we recommend that SSA:

1. Take corrective action to resolve the beneficiary suspensions and pay any benefits
   due the 147 beneficiaries identified by our audit.

2. Identify and take corrective action on the population of beneficiaries whose benefits
   were suspended because their addresses or whereabouts were unknown and who
   subsequently applied for a replacement Social Security card.

3. Improve controls to ensure beneficiaries who provide a correct, complete address
   when they apply for a replacement Social Security card are paid benefits that were
   previously suspended because their addresses or whereabouts were unknown.

AGENCY COMMENTS

SSA agreed with two of our three recommendations. SSA did not agree with
recommendation 2 because of its limited field office workload resources. SSA
also stated that beneficiaries are responsible for reporting events that affect their
entitlement to benefits.

The Agency’s comments are included in Appendix D.
Page 6 - The Commissioner

OIG RESPONSE
SSA agreed to take corrective action on the 147 beneficiaries identified by our audit,
but not on the 4,761 beneficiaries in our population. We believe such treatment is
inconsistent and results in benefits being withheld to eligible beneficiaries. Although we
recognize the workload constraints faced by SSA, the additional work is, on average,
fewer than 4 beneficiaries per field office. Therefore, we encourage SSA to reevaluate
its position and take corrective action on the population of beneficiaries whose benefits
were suspended because their addresses or whereabouts were unknown and who
subsequently applied for a replacement Social Security card.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
CSR    Customer Service Record
MBR    Master Beneficiary Record
POMS   Program Operations Manual System
SSA    Social Security Administration
                                                                      Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR). The extract consisted of 6,477 Title II beneficiaries
whose benefits were suspended because their address or whereabouts were
unknown between January 2000 and April 2008 and who subsequently applied for
a replacement Social Security card.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

•   interviewed SSA employees at the Sacramento Social Security Card Center and
    Santa Rosa and Walnut Creek, California, SSA Field Offices;

•   reviewed a random sample of 200 beneficiaries; and

•   obtained queries from SSA’s MBR and Numident.

We determined the computer-processed data from the MBR were sufficiently reliable
for our intended use. We conducted tests to determine the completeness and accuracy
of the data. These tests allowed us to assess the reliability of the data and achieve our
audit objective.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
September and December 2009. The entities reviewed were SSA’s field offices under
the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                Appendix C

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Master Beneficiary Record, we
identified a population of 6,477 Title II beneficiaries whose benefits were suspended
for address or whereabouts unknown and subsequently applied for a replacement
Social Security card between January 2000 and April 2008. We randomly selected a
sample of 200 beneficiaries and reviewed their payment records to determine the date
of benefit suspension; date they applied for a replacement Social Security card; and,
when applicable, date and reason for termination of benefits.

Based on a random sample of 200 beneficiaries, we found that SSA should
have resolved the whereabouts of 147 beneficiaries who applied for replacement
Social Security cards. As of June 2009, $700,052 in benefits was in suspense for
these beneficiaries. Projecting these results to our population, we estimate about
$22.7 million in benefits remained in suspense for address or whereabouts unknown
for 4,761 beneficiaries. The following tables provide the details of our sample results
and statistical projections.

Table 1 – Population and Sample Size

               Description                                           Number of Records
 Population Size                                                          6,477
 Sample Size                                                                200

Table 2 – Statistical Projections

                                                           Number               Suspended
               Description                                of Records             Benefits
 Sample Results                                                147                $700,052
 Point Estimate                                              4,761              $22,671,168
 Projection - Lower Limit                                    4,402              $16,375,419
 Projection - Upper Limit                                    5,085              $28,966,916
 Note: All statistical projections are at the 90-percent confidence level.
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      March 22, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Individuals Receiving Social Security
           Cards After Benefits Have Been Suspended” (A-09-09-29004)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, INDIVIDUALS RECEIVING SOCIAL SECURITY CARDS AFTER
BENEFITS HAVE BEEN SUSPENDED” (A-09-09-29004)


Thank you for the opportunity to review and comment on the draft report. We agree that using
suspense status information from the Customer Service Record (CSR) will assist in determining
if we need to take additional actions on benefit records when taking an application for a Social
Security replacement card. The report should note that CSR data was not available in the Visitor
Intake Process (VIP) for interviewers until 2004. Since the analysis goes back to 2002, some of
the cases identified should not be included in the report (e.g., the beneficiary described in the last
full paragraph on page 4) because the field office interviewer did not have access to the CSR
data and was not aware of the suspension status. In addition, if a beneficiary is currently in a
terminated status, the CSR query will not show prior periods of suspension due to address issues.
The report should clarify this point and the lack of access to the CSR prior to 2004.

Below are our responses to the specific recommendations.

Recommendation 1

Take corrective action to resolve the beneficiary suspensions and pay any benefits due the
147 beneficiaries identified by our audit.

Comment

We agree. We will review the 147 cases and take corrective action to resolve the beneficiary
suspensions and pay any benefits due by October 2010.

Recommendation 2

Identify and take corrective action on the population of beneficiaries whose benefits were
suspended because their addresses or whereabouts were unknown and who subsequently applied
for a replacement Social Security card.

Comment

We disagree. Beneficiaries are responsible for reporting events that affect their entitlement to
benefits. Due to our limited field office workload resources, we do not plan to review the total
population of beneficiaries, identified in this audit, whose benefits were suspended because their
addresses or whereabouts were unknown and who subsequently applied for a replacement Social
Security card.




                                                 D-2
Recommendation 3

Improve controls to ensure beneficiaries who provide a correct, complete address when they
apply for a replacement Social Security card are paid benefits that were previously suspended
because their addresses or whereabouts were unknown.

Comment

We agree. By June 2010, we will issue a reminder to staff to follow current procedures and take
appropriate action on cases where beneficiaries provide a complete address when they apply for
a replacement Social Security Card and the most recent payment status in CSR/VIP shows
suspension due to addresses or whereabouts unknown. The reminder will also alert cases where
suspensions are due to representative payee issues.

However, while a person must provide a complete address when completing the application for a
Social Security card, we make no determination if the address is correct.




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Daniel Hoy, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29004.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
